Department of Homeland Security
   Ofﬁce of Inspector General


Age Determination Practices for Unaccompanied 

         Alien Children in ICE Custody 





OIG-10-12                          November 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                      November 10, 2009

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses Immigration and Customs Enforcement’s practices for determining
the age of individuals in its custody, focusing on the use of dental or skeletal radiographs.
It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................7


     ICE Needs to Record and Track Age Determination Data ............................................7 


     ICE Recognizes Limits of Radiography for Age Determinations ...............................10 


     Management Comments and OIG Analysis ................................................................20 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................22 

     Appendix B:           Management Comments to the Draft Report .......................................23 

     Appendix C:           Major Contributors to This Report ......................................................25 

     Appendix D:           Report Distribution ..............................................................................26 


Abbreviations
     A-file                Alien File
     CBP                   United States Customs and Border Protection
     DHS                   Department of Homeland Security
     DIHS                  Division of Immigration Health Services
     DRO                   Office of Detention and Removal Operations
     ENFORCE               Enforcement Case Tracking System
     FY                    fiscal year
     HHS                   Department of Health and Human Services
     ICE                   United States Immigration and Customs Enforcement
     INS                   Immigration and Naturalization Service
     JFRMU                 Juvenile and Family Residential Management Unit
     ORR                   Office of Refugee Resettlement
     PHS                   United States Public Health Service
     TAR                   Treatment Authorization Request
     TVPRA                 Trafficking Victims Protection and Reauthorization Act of 2008
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Department of Homeland Security Immigration and Customs
                    Enforcement enforces United States immigration law by
                    apprehending, detaining, and deporting individuals who are not
                    authorized to remain in the country. Children are sometimes among
                    those encountered, and the Department of Homeland Security must
                    ensure that they are not detained with unrelated adults.

                    To separate unaccompanied children from detained adults, the
                    Department of Homeland Security attempts to establish the date of
                    birth of anyone it cannot readily identify as an adult or child.
                    Immigration officials collect information on possible juveniles to
                    ascertain their correct ages. Information may include professional
                    opinions based on dental or skeletal radiographs. However, the use
                    of radiographs to determine chronological age—age from a
                    person’s date of birth—has been criticized by some in the medical
                    and advocacy communities as unreliable.

                    We reviewed Immigration and Customs Enforcement’s approach to
                    age determinations at the request of the House Appropriations
                    Committee. In House Report 110-862, the committee said that the
                    department had “not ceased its reliance on bone and dental
                    forensics for child age determinations, as directed” in a previous
                    report. In its request, the committee asked us to report on any
                    cases in which Immigration and Customs Enforcement used bone
                    and dental forensics in 2008 or 2009.

                    Immigration and Customs Enforcement does not track age
                    determination data; therefore, we were unable to identify all cases
                    where it used radiographs for age determinations. Based on
                    interviews with officials, and our review of selected files and
                    guidance, we concluded that Immigration and Customs Enforcement
                    recognizes the limits of radiographs and strives to obtain additional
                    information when making age determinations. We are making
                    recommendations to track age determination data better, update
                    guidance for field offices, and ensure that radiographic exam results
                    include all required information and are properly documented.




         Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                           Page 1
Background
                           The Department of Homeland Security’s (DHS) Immigration and
                           Customs Enforcement (ICE) enforces United States immigration
                           law by apprehending, detaining, and deporting individuals who are
                           not authorized to remain in the country. Children apprehended by
                           ICE require different treatment than adult detainees.
                           Unaccompanied alien children—individuals less than 18 years of
                           age who are unlawfully in the United States without a parent or
                           other legal guardian—must be transferred to the Department of
                           Health and Human Services (HHS), Office of Refugee
                           Resettlement’s (ORR) custody to await deportation or transfer to a
                           legal guardian in the United States.1

                           To separate unaccompanied children from adults, ICE attempts to
                           establish the date of birth for any apprehended person not readily
                           identifiable as an adult or child. ICE uses various forms of
                           information for age determination purposes, including interview
                           statements and documentation such as birth certificates. When
                           ICE has difficulty determining whether an individual is a child or
                           an adult, it may also obtain a professional medical opinion based
                           on dental or skeletal radiographs, commonly referred to as x-rays,
                           to help make a determination. ICE’s use of radiographs, however,
                           has been criticized by some in the medical and advocacy
                           communities as unreliable.

                           Legal Guidance on Unaccompanied Alien Children

                           Since 1997, ICE and its precursor, the Immigration and
                           Naturalization Service (INS), have been bound by the Flores
                           Settlement Agreement. This agreement between the Department of
                           Justice and a coalition of immigrants’ rights groups established
                           guidance on the treatment of minors in the custody of immigration
                           officials. It also recognizes the particular vulnerability of minors
                           and states that immigration officials will hold minors separate from
                           unrelated adults. The agreement stipulated 3 to 5 days for the
                           transfer of juveniles to a licensed juvenile shelter.

                           While the INS maintained its own program for housing juvenile
                           aliens, the Homeland Security Act of 2002 transferred
                           responsibility for housing unaccompanied alien children from the
                           INS to HHS ORR. ORR places unaccompanied alien children in
                           juvenile facilities and foster care homes for the duration of their


1
    Homeland Security Act of 2002 (Public Law 107-296) November 25, 2002.

                Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                                  Page 2
                         immigration proceedings, or until they can be reunited with
                         appropriate guardians in the United States.

                         Because unaccompanied children must be placed in separate
                         facilities from adult detainees, an incorrect age determination may
                         result in violating the Flores Settlement Agreement. While no
                         statute or regulation describes an exact procedure for establishing
                         an individual’s age, the Flores Settlement Agreement instructs that
                         if a “reasonable person” would conclude that an alien detained by
                         immigration officials is an adult, despite his or her claim to be a
                         minor, the individual shall be treated as an adult. The Flores
                         Settlement Agreement also provides that immigration officials may
                         require an alien to submit to a medical or dental examination
                         conducted by a medical professional, or to other appropriate
                         procedures, to verify his or her age.

                         In December 2008, Congress provided direction for developing
                         age determination procedures in the William Wilberforce
                         Trafficking Victims Protection and Reauthorization Act of 2008
                         (Public Law 110-457), also known as the TVPRA. Effective
                         March 23, 2009, the TVPRA required HHS to develop procedures
                         for making a “prompt determination of the age of an alien” in
                         consultation with DHS. According to the TVPRA, both DHS and
                         HHS must use these procedures. While it did not specify which
                         methods to use in the age determination process, the TVPRA
                         established a minimum requirement that the government’s
                         procedures take into account multiple forms of evidence, including
                         the nonexclusive use of radiographs for age determinations.2

                         Apprehension and Detention of Unaccompanied Alien Children

                         ICE’s Office of Detention and Removal Operations (DRO) is
                         responsible for managing immigration cases for juveniles and
                         adults. At the headquarters level, DRO’s Juvenile and Family
                         Residential Management Unit (JFRMU) manages policy for alien
                         juveniles and families, and provides related oversight and support
                         for ICE’s field offices.

                         At the field level, ICE agents and officers encounter
                         unaccompanied alien children in various ways. Unaccompanied
                         alien children may be encountered and detained by ICE agents and
                         officers participating on fugitive operations teams, or through
                         enforcement actions undertaken by ICE’s Office of Investigations.

2
 William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 (Public Law 110-457)
December 23, 2008.

              Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                                Page 3
           Unaccompanied alien children are also encountered and detained
           by local police departments, which notify the local ICE office.
           ICE field offices also reach out to local detention facilities through
           the Criminal Alien Program, which aims to identify and deport
           incarcerated criminal aliens after completion of their sentence.
           After apprehending an alien, ICE agents and officers collect and
           document available biographical information before placing
           juveniles and adults in appropriate facilities.

           U.S. Customs and Border Protection (CBP) also apprehends
           unaccompanied alien children. Like their counterparts at ICE,
           CBP agents and officers typically bear responsibility for
           conducting initial interviews with the individual and gathering
           basic biographical information to determine whether an individual
           is a juvenile or adult. ICE assumes responsibility for effecting all
           deportations from the United States and maintains an Alien File
           (A-file) to document pertinent biographical and legal information
           on each alien it detains.

           Age Determinations

           The need to verify a detained individual’s age can arise at any
           point between his or her apprehension to release from custody.
           Figure 1 identifies three typical scenarios during an alien’s
           apprehension and detention when age-related information is
           gathered and age determinations are made.

           In figure 1, the first scenario occurs at point A when DHS initially
           apprehends an alien. DHS officers and agents make placement
           decisions based on whether an alien entering DHS custody is a
           juvenile or an adult. In some cases, however, it may not be readily
           apparent whether an individual is a juvenile or an adult. In these
           instances, the apprehending officer typically takes additional
           measures to determine an individual’s age, guided by the
           “reasonable person” standard articulated in the Flores Settlement
           Agreement, along with specific agency guidance.




Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                  Page 4
           Figure 1. Age Determinations in DHS and HHS Custody




           Source: Interviews with field staff

           Under the second scenario, at point B in figure 1, officers make a
           more explicit age determination when an individual already
           detained in an adult detention facility claims to be a juvenile. In
           this case, facility personnel separate the individual from the
           detained adult population until ICE can acquire additional
           information to ascertain the individual’s date of birth.

           Point C in figure 1 depicts the third scenario, in which an
           individual in a juvenile shelter is suspected of being an adult, either
           because of his or her own statements or through research by shelter
           staff. In these cases, the shelter’s staff is responsible for verifying
           the individual’s age. ICE accepts individuals who are determined
           to be adults into one of its adult detention facilities, provided the
           shelter staff supply documentation of the alien’s age; juveniles
           remain in the shelter.




Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                  Page 5
           The Role of Radiographs in Age Determinations

           Without clear evidence indicating whether a person is either an
           adult or juvenile, ICE agents and officers may obtain the results
           from a dental and skeletal radiograph to assist with an age
           determination. A medical professional examines skeletal or tooth
           development as depicted on a radiograph and estimates the
           individual’s chronological age, or age from date of birth. In the
           case of dental radiographs, dentists usually make assessments
           based on the development of an individual’s third molars, or
           wisdom teeth, in both the upper and lower jaws. For skeletal
           radiographs, the examiner makes an age estimation based on bone
           development in the hand and wrist area.

           Using radiographs of a person’s bones or teeth, however, cannot
           produce a specific age due to a range of factors affecting an
           individual’s growth. These include normal biological variation, as
           well as cultural and ethnic differences. The timing of puberty, diet,
           genetics, health, and geography can also affect tooth and bone
           development. We spoke with a pediatric physician who said that
           abuse and torture can affect bone growth as well.

           Historically, the use of radiographs for age determinations has
           drawn upon research dating back to the 1930s and 1940s on bone
           growth in juveniles. Early studies, however, involved ethnically
           homogenous populations. Used in the context of immigration,
           where agencies encounter a variety of ethnicities, such limited
           studies do not adequately represent the individuals whose ages
           must be verified. More recent work, cited by some medical
           professionals we spoke with, has begun to account for ethnic
           variations in bone and tooth development.

           Although the Flores Settlement Agreement permits “medical or
           dental” examinations, some advocacy groups have opposed the use
           of dental and skeletal radiographs as part of an age determination,
           arguing that the results are not reliable and could lead to
           individuals being inappropriately assigned to adult facilities or
           juvenile shelters. Reports released by the House Appropriations
           Committee express similar concerns.

           Alternative Approaches to Age Determination

           In an earlier report, the House Appropriations Committee
           suggested that ICE employ “holistic age-determination
           methodologies” when assessing the age of those in its custody.
           The TVPRA, however, does not require the adoption of such an

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                  Page 6
                   approach; nor does instruction released in March 2009 by HHS
                   define or elaborate on what constitutes a holistic approach to age
                   determinations. As part of our review, however, we attempted to
                   discover what such an approach might consist of and what efforts
                   ICE made in response to the committee’s direction.

                   We could not identify a single, authoritative definition of what
                   might constitute a holistic approach to age determination. Medical
                   professionals we spoke with, including representatives of medical
                   centers and universities as well as immigrants’ rights advocates,
                   were not aware of a specific holistic approach to age
                   determinations. Several individuals in the medical community
                   noted that psychological testing of individuals to determine exact
                   age would be difficult. Some appeared to favor measuring
                   biological factors over psychological testing, as the latter is more
                   difficult to do and is even less predictable.

                   ICE indicated that it had studied the matter as well. Responding to
                   congressional concerns, ICE stated that little information is
                   available on a single, authoritative holistic method and it did not
                   find people properly credentialed to perform such assessments.
                   ICE further stated that despite extensive research, it did not find a
                   standard or precise process or technique for conducting holistic age
                   determinations.


Results of Review
     ICE Needs to Record and Track Age Determination Data
          Due to limitations in the data maintained by ICE regarding age
          determinations, we were unable to ascertain how often ICE had used
          radiographs to determine an individual’s age. ICE does not collect
          information on the number of radiographs taken to help make an age
          determination, or on the number of times a determination had been
          reversed. The only information ICE could provide on age determinations
          was the number of times its field offices formally requested to use
          radiographs for age determination purposes. Headquarters officials we
          spoke with at ICE said that the agency plans to update its information
          systems to collect more data on age determinations. Such a step can help
          ICE monitor and evaluate its use of radiographs in better assessing age.

                   ICE Does Not Track Radiographic Examinations

                   ICE was unable to provide data showing the number of individuals
                   who underwent a radiographic examination from the beginning of
        Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                          Page 7
                          FY 2008 to April 2009. However, JFRMU officials said that this
                          number is historically low. We also spoke with field office
                          juvenile coordinators—DRO field personnel who oversee juvenile
                          cases within a particular geographic area— who provided
                          estimates of how many radiographs were taken in a given year for
                          age determination purposes. Many juvenile coordinators indicated
                          that radiographs were rare, commenting that they had not been
                          aware of any radiographs performed in the past 2 years. A few
                          indicated that a dental radiograph might occur as often as 2 to 5
                          times per month in their geographic area of responsibility.

                          The Division of Immigration Health Services (DIHS) provided us
                          with the number of requests for a radiograph for an age
                          determination. Field personnel submit Treatment Authorization
                          Requests (TARs) to DIHS for health and medical services for
                          detained aliens, including radiographs for age determinations.
                          Information provided by DIHS showed that 258 radiograph
                          requests were received from the beginning of FY 2008 to April 14,
                          2009. These requests covered 248 individuals, including 178
                          individuals in FY 2008 and 70 individuals through April of
                          FY 2009. The remaining 10 TARs were either duplicates or
                          requests for a second exam.

                          We were unable to rely on TAR figures to determine the exact
                          number of radiographic exams performed for age determinations
                          for two reasons. First, when field personnel submit a TAR for a
                          radiograph, there is no assurance that a radiograph is actually
                          taken. Of 89 alien files that we reviewed for individuals who were
                          the subject of the TARs previously described, 40 files did not
                          contain evidence of a radiograph.3 Field office juvenile
                          coordinators cited examples of exam that were requested but not
                          carried out because they were able to verify age by other means,
                          such as a birth certificate.

                          Second, while ICE officials said that field personnel are supposed
                          to request radiographs for age determinations through DIHS, this
                          does not always occur. DIHS officials agreed that requests might
                          not be submitted in all cases and noted that access to TARWeb, the
                          information system through which TARs are submitted, is limited.
                          While most juvenile coordinators we spoke with were aware of
                          either the TAR process or the need to request approval, several
                          field office juvenile coordinators were unaware of the TAR

3
  The 89 files were drawn from archives at the National Records Center based on the age-related
information within each file. The sample is not representative and cannot be generalized to the detained
population as a whole.

               Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                                  Page 8
           process and indicated that notice of a radiographic exam being
           scheduled is not forwarded beyond their field office.

           ICE Does Not Track Age Determinations That Were Reversed

           ICE could not account for the number of instances an age
           determination had been reversed, either correcting an instance in
           which an adult had been classified as a child or a child had been
           classified as an adult, or the number of times an age determination
           has been appealed.

           Field office juvenile coordinators provided informal estimates on
           how many reversals they generally see in a given year. Of the 21
           juvenile coordinators we interviewed, 12 indicated that they were
           familiar with instances in which a juvenile had been placed in an
           adult facility or an adult in a juvenile shelter. The frequency with
           which such inappropriate placements are identified ranged by field
           office, from twice over three years to about three times per week,
           according to the officers. Other officers we interviewed were not
           sure of the number or told us that they were unaware of any
           instances when this occurred.

           ICE Has Initiated Efforts to Increase Collection of Age
           Determination Data

           ICE officials informed us that they plan to address limitations in
           the agency’s ability to collect age determination data. Specifically,
           JFRMU is pursuing modifications to ICE’s primary administrative
           case management system, the Enforcement Case Tracking System
           (ENFORCE), to help the agency track age determinations better in
           the future. Among the fields, it requested an entry to account for
           whether ICE field personnel requested a radiographic exam.
           JFRMU understands that these fields will be incorporated in an
           updated version of ENFORCE, due in December 2009.

           Conclusion

           ICE reporting and management activities could benefit from the
           ability to track and assess information pertaining to age
           determinations centrally, including (1) the frequency of dental or
           skeletal radiographs, (2) instances in which an initial age
           determination and placement by DHS has been reversed, and
           (3) information used to support the reversal. This type of
           information will help ICE identify how often radiographs are used
           in the field, as well as gauge their contribution to the age
           determination process.

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                  Page 9
     Recommendation
              We recommend that the Assistant Secretary for U.S. Immigrations
              and Customs Enforcement:

              Recommendation #1: Continue to enhance JFRMU’s ability to
              collect and analyze data on the use of radiographs for age
              determinations. At a minimum, enhancements should provide
              JFRMU with the ability to track (1) the number of radiographs
              taken for age determinations, (2) date and results of the exam, and
              (3) age determinations and placement decisions that were later
              reversed.


ICE Recognizes Limits of Radiography for Age Determinations
     The House Appropriations Committee expressed concern that ICE was
     relying on radiographs for age determinations for aliens in its custody, and
     questioned the reliability of radiographic evidence that ICE uses when
     determining whether an individual is an adult or juvenile. Advocacy
     groups have made similar assertions and expressed concern that children
     or adults may be placed in inappropriate facilities.

     Medical professionals we spoke with expressed skepticism that a
     radiographic exam could be used to discover specifically whether an
     individual has attained 18 years of age. However, they did generally agree
     that radiographic exams could provide a usable age range.

     ICE recognizes the limits of radiographs as a precise indicator of age and
     in 2004 issued guidance on age determinations for custody decisions. This
     guidance, which is still in use, directed officers not to base age
     determinations solely on radiographs, but to consider the totality of
     available evidence. ICE’s guidance cautions field offices about the
     variability of results from radiographic exams when used for age
     determinations. This guidance also notes many of the same factors
     affecting radiographic exam reliability that medical practitioners brought
     to our attention, including normal biological variations, nutrition, race,
     ethnicity, geographic location, socioeconomic status, and variations in
     interpreting radiographic exam results.

              Evidence Used in Age Determination Cases

              ICE’s 2004 guidance identifies a range of information sources that
              field officers may use to determine whether an individual is an
              adult or a juvenile, including results from radiographic exams.

   Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                    Page 10
           According to ICE’s guidance, sources of information that can help
           establish whether an individual is a juvenile or adult include the
           following:

           •	    Statements made by the alien, or by another individual with
                 personal knowledge of the alien’s age,
           •	    Information or records from federal, state, local, or foreign
                 government agencies,
           •	    Documentation that can credibly establish date of birth,
           •	    Results of dental or wrist bone radiographs conducted by an
                 expert, and
           •	    Assessments of the alien’s physical appearance and behavior.

           To assess the types of evidence that ICE uses in addition to
           radiographs for age determination purposes, we reviewed a sample
           of 89 A-files for which a radiograph had been requested. Of the 89
           A-files that we reviewed, 49, or 55%, included evidence that a
           radiograph had been performed. Based on our file review and
           interviews with field staff, we conclude that ICE acquires multiple
           forms of available evidence, including radiographs, to help
           establish an alien’s age in borderline cases.

           Initial Evidence Used to Determination Age

           During an apprehension, the arresting officer determines whether
           the individual is a juvenile or adult based on statements made in an
           interview, the alien’s physical appearance, and any documents the
           alien might be carrying. Information acquired during interviews is
           recorded on ICE’s form I-213, Record of Deportable/Inadmissible
           Alien. This information often plays a significant role when
           assessing whether someone is an adult or child. Juvenile
           coordinators we spoke with commented that appearance is a factor
           in an officer’s determination; however, we noted minimal
           documented evidence that appearance was used as a factor during
           our file review.

           ICE officers also check government records for biographical
           information, which is a useful step when records on the detained
           individual exist and the information is accurate. However, juvenile
           coordinators said that in most cases, juveniles do not have existing
           records since it is their first time attempting to cross into and
           remain in the United States.

           In the absence of contradictions in age determination documentation
           and other related evidence, ICE holds adults in its detention facilities
           and transfers juveniles to juvenile shelters identified by HHS ORR.

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 11
           Additional Evidence Used in Age Determination Cases

           Age is more difficult to determine in certain instances, specifically
           when an individual’s appearance does not closely reflect his or her
           actual age. Medical professionals we interviewed said that both
           adults’ and children’s physical appearance and behavior can vary
           widely based on several factors, including physical and emotional
           maturity, exposure to climate, work and life experiences, and
           trauma. A representative from HHS agreed with this assessment,
           noting that individuals’ appearance and behaviors can be subject to
           malnutrition, work experience, and trauma.

           In these cases, interview statements and appearance or behavior are
           not always sufficient. Juvenile coordinators told us of instances
           where detained aliens had initially provided inaccurate dates of
           birth to apprehending officers. Juvenile coordinators said that
           sometimes smugglers direct aliens to claim that they are older, or
           children will lie about their age so they can stay with adults with
           whom they were apprehended.

           When arresting officers question an alien’s claim as being an adult
           or juvenile, or an individual detained in an adult facility claims to
           be a juvenile, ICE officers must seek other forms of evidence to
           establish his or her actual date of birth. In these cases, additional
           information may include results from radiographic examinations;
           further interview statements from the alien or others;
           documentation from the alien’s family or home country consulate;
           other forms of input from the alien’s home country consulate; and,
           any combination of these or other credible sources.

           During our file review, we noted instances where a detained alien’s
           date of birth recorded after initial apprehension did not match their
           date of birth on a birth certificate or other formal document. In
           these cases, the apprehending officer obtained an incorrect date of
           birth for an alien, which may have contributed to their initial
           placement.

           Radiographs

           Most juvenile coordinators we interviewed said that radiographs
           are used as a last resort when ICE may question an alien’s claim of
           being a juvenile but cannot acquire other information to make an
           appropriate age determination. ICE officials explained that
           requested birth certificates may arrive late, and sometimes not at
           all. While some juvenile coordinators said that their field offices

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 12
           do not use radiographic exams, others indicated that a radiographic
           exam is used when ICE must verify age in the absence of requested
           documentation or other credible information.

           One advantage of using radiographs is that they can be completed
           quickly. A comparison between the requested dates for
           radiographs and the actual examination, when such a comparison
           was possible, showed that for 42 of the 49 cases in our sample, the
           radiographs took place on average within 1 day of the request. In
           two of those cases, radiographs were conducted before the requests
           were submitted, suggesting that ICE officers may seek approval
           retroactively. This fast turnaround can be an important advantage
           given ICE’s time constraints and when other age-related
           information is not forthcoming. Officials in DRO and DHS’
           Office for Civil Rights and Civil Liberties noted that the Flores
           Settlement Agreement time constraints create pressures on ICE to
           make age determinations as soon as possible. Juvenile
           coordinators indicated that radiographs can be done within a short
           timeframe.

           Information From Other Individuals

           ICE officers also make efforts to acquire information on an alien
           from others with whom the individual was apprehended. Some
           individuals have contact information for family in the United
           States. In these cases, ICE can attempt to contact relatives to seek
           confirmation of the individual’s age, as well as start to identify
           legal guardians.

           Documentation

           In practice, ICE officers indicated a preference for credible
           documentation to establish date of birth. Examples of these
           documents include birth certificates, identity cards, school and
           baptismal records, passports, and other travel documents.
           Officers attempt to obtain documentary evidence from the aliens,
           their families, or their home country consulate. Documentation
           attesting to the alien’s date of birth was included in 32 of the 49 A-
           files with evidence of radiographs.

           Consular Involvement

           An ICE officer’s contact with consulates can be helpful in
           establishing an individual’s age. Consulates have some ability to
           provide or verify documentation and confirm information
           previously provided to ICE. They can also acquire and verify

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 13
           information through their interviews with detained aliens.
           Consulates can also compare an alien’s biographical information to
           records in their data systems to verify information provided to ICE.
           Juvenile coordinators agreed that consulates tend to be very
           responsive to juvenile cases; however, their response times varied
           by case. Overall, juvenile coordinators said that ICE officers
           contact consulates regularly as they attempt to acquire additional
           information about a potential juvenile. Documented involvement
           by the alien’s home country consulate was included in 23 A-files
           that also had radiographs.

           Figure 2 shows the different combinations of information
           contained in the 49 A-files that also contained results from a
           radiograph.

           Figure 2. A-Files with Evidence of a Radiograph




           Source: A-file review and OIG Analysis

           ICE Needs to Provide Instructions to Field Offices for
           Implementing HHS Guidance

           The TVPRA provided DHS and HHS with direction for
           developing procedures for age determinations. In addition to
           charging HHS with the development of procedures for making age
           determinations in consultation with DHS, the TVPRA permits the
           nonexclusive use of radiographs for age determinations.


Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 14
                             In response to the TVPRA, HHS released program instruction on
                             age determinations in March 2009. As of September 2009, this
                             guidance had been signed by the acting director of ORR. Before
                             releasing its own updated field guidance, however, ICE indicated
                             that it is awaiting the release of HHS’ finalized policy on age
                             determinations.

                             HHS’ guidance contains the essential elements of ICE’s 2004
                             policy in that DHS and HHS will use documentation, statements
                             from the alien and other individuals, record checks, and bone or
                             dental examinations as part of the age determination process.
                             Compared with ICE’s 2004 guidance, however, HHS’ procedures
                             limit the types of people who can provide statements on an alien’s
                             age to the alien, the alien’s parents, and those encountered with the
                             alien.4 The standard in ICE’s 2004 guidance is broader, directing
                             officers to consider statements from those with a personal
                             knowledge of the alien’s age that the ICE officer concludes can
                             credibly attest to the age of the alien.

                             Another significant difference is that HHS’ guidance does not
                             include appearance or behavior as criteria for evaluating whether
                             an individual is an adult or juvenile, but instead lists appearance as
                             a challenge to the age determination process. It identifies
                             additional challenges as diminished mental capacity, contradictory
                             or fraudulent documents and statements, and unavailable
                             documentation on date of birth.

                             ICE’s 2004 guidance does comprehensively address the uses and
                             limitations of radiography for making age determinations,
                             something HHS’ program instruction excludes. HHS also includes
                             a requirement on the use of radiographs as a last resort and only
                             when other information listed in the guidance is not available. It
                             also instructs those using radiographs to favor determining the
                             alien to be a minor if the results are ambiguous.

                             Figure 3 offers a basic comparison of elements of ICE’s 2004
                             HHS’ 2009 policies.




4
    HHS also allows sworn affidavits from parents or other relatives if the alien is already in HHS custody.

                 Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                                     Page 15
  Figure 3. Information Used in Age Determinations




  Source: OIG Comparison of ICE DRO and HHS ORR policy documents

           While these policies are similar in most respects, it is important for
           ICE to release updated instructions to field officers that clarify
           ICE’s post-TVPRA approach to age determinations and conform to
           HHS’ guidance. In particular, field offices should receive
           instruction on the role that appearance and behavior play in
           considering whether an individual should be placed as an adult or
           juvenile, as well as the types of individuals who can provide
           information on a detained alien’s age. Procedures for handling
           individuals suffering from mental disabilities would aid field
           personnel when faced with such a scenario. ICE should also
           address the important role consulates can play for helping to
           establish the age of individuals in custody, when such a step would
           not adversely affect the alien.

           Conclusion

           Based on our review of specific documentation and interviews
           with relevant officials, we conclude that ICE officials maintain a
           keen awareness of the limitations of radiography and a preference
           for establishing age by other means.

           Legal requirements to place all unaccompanied juveniles in HHS
           custody make the timing of age determinations critical. ICE does
           not, however, immediately or simultaneously receive all the
           information mentioned. The A-files we reviewed did not
           document the decision process used by ICE to determine age, or
           the specific information and evidence that contributed to the age
           determination. In some files, officers included a “note to file”

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 16
           marking the date an age determination was made, the result, and
           the information used to reach a decision. This is a commendable
           best practice by some field personnel that ICE should consider
           adopting on a more widespread basis.

  Recommendation
           We recommend that the Assistant Secretary for U.S. Immigrations
           and Customs Enforcement:

           Recommendation #2: Update and release guidance that clarifies
           how DRO field offices are to conduct age determinations
           following the TVPRA based on HHS’ guidance. ICE’s field
           guidance should be consistent with HHS’ procedures, address
           challenges, identify best practices for establishing age, and include
           requirements for documenting the age determination process.


           Radiographic Exam Results Need to Be Properly Documented

           ICE officers rely on the medical professionals who conduct
           radiographic exams to interpret exam results. ICE requires medical
           professionals who conduct radiographic exams to complete and
           return a two-page worksheet. The worksheet includes entries for
           information such as (1) whether the examined individual is 18 years
           or older; (2) the medical professional’s degree of certainty regarding
           the age determination, which should be in the form of a percentage;
           (3) an explanation of the medical professional’s conclusion; and
           (4) the research and materials that formed the basis for their
           conclusion. It requires a practitioner to indicate whether he or she is
           a physician, dentist, or forensic anthropologist. ICE also permits
           practitioners to generate their own report.

           ICE uses these worksheets and reports to help make and document
           its age and custody determinations. Therefore, it is important that
           worksheets (1) not oversimplify or overstate the results of a
           radiographic exam, (2) are based on up-to-date scientific research,
           and (3) identify underlying reference materials and any limitations
           of the materials or methods used. Age estimation reports that
           consistently provide ICE with such information can help ICE
           officers weigh the results of a radiographic exam alongside
           additional evidence.

           The quality and extent of documentation ICE receives on
           radiographic exam results varies. Most radiographic reports that
           we reviewed included a combination of data such as an average

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 17
           age for individuals with equivalent tooth development as the
           subject, an age range or standard deviation, and a percentage
           probability on whether the individual had attained his or her 18th
           birthday. Specific medical professionals who provided multiple
           reports to ICE reported results in a consistent format; however, the
           providers differed among themselves on the types of data provided
           to ICE, and the presentation format. Some used ICE’s worksheet
           while others did not. Some providers furnished an age range while
           others included the average age of individuals with equivalent
           development and the probability that the individual had attained 18
           years of age. In several cases, the provider furnished minimal
           information other than the estimated age and the degree of
           certainty in that conclusion.

           Radiographic exam reports prepared by medical professionals also
           do not always include full reference information regarding the
           specific studies used as a basis for their age determination, which
           is a requirement in ICE’s 2004 guidance. In our sample of A-files,
           professionals who provided information cited three separate
           sources, but provided a full citation from only one case. In another
           instance, one dentist consistently cited a study based on white
           males and females, even though subjects of the age determinations
           appeared to be Hispanic.

           ICE needs to ensure the quality of its radiographic exam results by
           obtaining the citations for studies that physicians used to determine
           age. By receiving more complete information on the type of study
           used to make an age estimation, the underlying scientific data and
           methods that support its age determination can be based on more
           current research and reflect the appropriate ethnicity of the
           individual.

           ICE Needs to Prioritize Use of Providers with Specialized
           Experience

           ICE’s approach for selecting physicians to conduct radiographic
           exams for age determinations is inconsistent. ICE’s 2004 guidance
           requires field offices to consult with Public Health Service (PHS)
           staff when selecting a medical professional to conduct a
           radiographic exam. In practice, most juvenile coordinators we
           spoke to said that they schedule appointments for dental radiographs
           with the same dentists used by their predecessors. Field office
           juvenile coordinators did not know how professionals were initially
           selected and were unaware of any list of practices that ICE or PHS
           had released to the field. Some juvenile coordinators added that if
           they needed a dental radiograph, they chose providers based their

Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 18
           proximity to the office. Other coordinators said that they consulted
           a supervisor, headquarters, or PHS staff in their area to find a dentist
           to conduct an exam. Some juvenile coordinators we interviewed
           were not sure whether to seek providers with a specific certification,
           or what certification or specialty would be most useful. One
           suggested a pediatric dentist might be best; others said that a
           forensic dentist is preferable.

           Professional certifications in forensic dentistry are available to
           those who work in the field and who have completed a series of
           requirements, including examinations. Certifications beyond
           standard dental or medical degrees can provide assurance that the
           medical professionals asked to estimate an alien’s age based on
           radiographic exams have additional, specialized training.
           However, ICE has not identified credentials or certifications that it
           prefers for these purposes, or physicians with these certifications.

           ICE could start by ensuring that juvenile coordinators can identify
           and use professionals with the best qualifications to conduct forensic
           radiographs and provide age estimates. Equipping field offices with
           information on medical professionals who are specially trained and
           certified in forensic science can aid them in making appointments
           for radiographs. While using medical professionals with forensic
           science credentials might be difficult given location and availability,
           ICE would benefit by identifying and using these professionals
           wherever practical. Identifying professionals with such credentials
           provides a minimum level of certainty that those conducting exams
           are using the most current research and methods and are aware of
           limitations. It also guarantees that professionals have demonstrated
           their skill in forensic science through additional training,
           examination, and certification. With input from knowledgeable
           authorities, ICE should especially identify individuals who are
           routinely asked to provide age estimations based on radiographic
           exams; assess their degree of specialization in forensics, and direct
           field offices to use those who possess additional qualifications.

  Recommendation
           We recommend that the Assistant Secretary for U.S. Immigrations
           and Customs Enforcement:

           Recommendation #3: Release guidance on the selection of “best-
           qualified” practitioners to conduct radiographic exams and report
           results when practical.



Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 19
Management Comments and OIG Analysis
                   ICE provided comments to our draft report, concurring with all
                   three recommendations. Below is a summary of ICE’s written
                   response to our recommendations and our analysis of the response.
                   A copy of ICE’s response, in its entirety, appears in Appendix B.

                   Recommendation #1: Continue to enhance Juvenile and Family
                   Residential Management Unit's (JFRMU) ability to collect and
                   analyze data on the use of radiographs for age determinations. At a
                   minimum, enhancements should provide JFRMU with the ability
                   to track (1) the number of radiographs taken for age
                   determinations, (2) date and results of the exam, and (3) age
                   determinations and placement decisions that were later reversed.

                   ICE Response: ICE concurred with our recommendation and said
                   it will continue efforts to improve its ability to track data on age
                   determinations.

                   OIG Evaluation: This recommendation is resolved, but remains
                   open pending confirmation that ICE can accurately account for the
                   number of radiographs taken for age determinations over a given
                   period as well as produce the number of instances an individual
                   was mistakenly placed in either a juvenile or an adult facility.
                   Such information can help ICE evaluate the efficacy of its age
                   determination process and identify error rates when making
                   placement decisions.

                   Recommendation #2: Update and release guidance that clarifies
                   how DRO field offices are to conduct age determinations
                   following the TVPRA and release of HHS' guidance. The guidance
                   they provide should be consistent with HHS' procedures, identify
                   best practices for establishing age, and include requirements for
                   documenting the age determination process.

                   ICE Response: ICE concurred with our recommendation.
                   However, it said that as of September 15, 2009 HHS has only
                   issued field guidance based on a proposed draft policy. ICE said
                   that it will disseminate updated field guidance after HHS has
                   released a final policy. ICE added that in the interim it will
                   continue to use its 2004 policy, which closely mirrors the draft
                   HHS policy. ICE noted that HHS’ draft policy was based in part
                   on DRO’s field guidance.

                   OIG Evaluation: This recommendation is resolved, but remains
                   open pending receipt of new field guidance for ICE field offices

        Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                         Page 20
           that reflects age determination procedures released in final form by
           HHS.

           In addition, while ICE’s 2004 guidance shares many similarities
           with HHS’ 2009 procedures, as we report, both documents offer
           guidance not contained in the other. ICE can improve its field
           guidance by including, at minimum, elements of both policies such
           as challenges associated with age determinations, the limits of
           using radiographs, and how to handle ambiguous radiographic
           exam results. By incorporating these subjects into new field
           guidance ICE can enhance its existing field instructions and equip
           both new and more experienced field officers and agents with basic
           procedures for handling different types of cases.

           Recommendation #3: Release guidance on the selection of "best
           qualified" practitioners to conduct radiographic exams and report
           results when practical.

           ICE Response: ICE concurred with our recommendation and said
           that it will work with its Division of Immigration Health Services
           to develop such guidance.

           OIG Evaluation: This recommendation is resolved, but remains
           open pending receipt of such guidance. Making field officers
           aware of medical or dental professionals certified in forensics can
           facilitate acquisition of a more credible age estimation under tight
           time constraints.




Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                 Page 21
Appendix A
Purpose, Scope, and Methodology

                          In a House Report associated with the Consolidated Security,
                          Disaster Assistance, and Continuing Appropriations Act, 2009
                          (P.L. 110-329),5 the House Appropriations Committee voiced
                          concern that DHS had “not ceased its reliance on bone and dental
                          forensics for child age determination, as directed” in a previous
                          report. This previous report suggested that ICE use holistic age-
                          determination methodologies.6 The House Appropriations
                          Committee also asked us to report on any cases in which bone and
                          dental forensics were used in FY 2008 or 2009.7

                          At the request of the House Committee on Appropriations, we
                          reviewed ICE’s age determination practices for those in its
                          custody, focusing on the use of dental and skeletal radiographs.
                          Our objectives were to (1) identify the practices and procedures
                          ICE used to determine the age of undocumented detainees held in
                          ICE custody in fiscal 2008 and 2009; (2) determine whether ICE
                          implemented age determination methodologies as identified in
                          House Report 110-181, attached to P.L. 110-161; and
                          (3) document any cases where ICE relied on bone and dental
                          forensics for child age determinations in FY 2008 and 2009.

                          We conducted field work at ICE headquarters in Washington, DC,
                          and the National Records Center in Lees Summit, MO. We
                          interviewed headquarters staff at ICE DRO, and field office
                          juvenile coordinators at DRO offices nationwide via telephone.
                          We also spoke to individuals working in the health care, academic,
                          and advocacy communities across the United States on the use of
                          radiographs for determining an individual’s age.

                          We reviewed 89 A-files to assess how radiographs are used in age
                          determinations, what other evidence ICE collects for this purpose,
                          and how radiographic exams are presented to ICE. We reviewed
                          and analyzed applicable laws, policy documents, records, and
                          nongovernmental reports and journal articles relating to age
                          determinations.

                          We conducted our review between March and June 2009 under the
                          authority of the Inspector General Act of 1978, as amended, and
                          according to the Quality Standards for Inspections, issued by the
                          Council of the Inspectors General on Integrity and Efficiency.

5
  H.R. 110-862. 

6
  H.R. 110-181. 

7
  Pursuant to the House Appropriations Committee’s request, we focused on ICE’s practices for age

determinations exclusively, and did not examine CBP’s role in making age determinations for

unaccompanied alien children. 


              Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                                Page 22
Appendix B
Management Comments to the Draft Report




          Age Determination Practices for Unaccompanied Alien Children in ICE Custody 


                                            Page 23

Appendix B
Management Comments to the Draft Report




          Age Determination Practices for Unaccompanied Alien Children in ICE Custody 


                                            Page 24

Appendix C
Major Contributors to This Report

                      Deborah Outten-Mills, Chief Inspector
                      Andrew Schmidt, Inspector
                      Howard Bobman, Inspector
                      Shawntae Brown, Inspector




           Age Determination Practices for Unaccompanied Alien Children in ICE Custody

                                            Page 25
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Officer for Civil Rights and Civil Liberties
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for ICE
                      ICE Liaisons

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Age Determination Practices for Unaccompanied Alien Children in ICE Custody 


                                             Page 26

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
